APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Sixth Circuit (May 3, 2019) ......................... 1a
Order of the United States District Court for the
Middle District of Tennessee, Nashville Division
(March 30, 2018) ............................................... 27a
Order of the United States Court of Appeals for
the Sixth Circuit Denying Petition for
Rehearing En Banc (July 19, 2019) ................. 40a
Relevant Statutory Provisions ............................... 42a
Oral Deposition of Stephen B. Moore
—Relevant Excerpts (August 9, 2017) ............. 48a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(MAY 3, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
923 F.3d 458
________________________
JAMES HUFF, Individually and
on Behalf of all Others Similarly Situated,

Plaintiff-Appellant,
v.
TELECHECK SERVICES, INC.,
TELECHECK INTERNATIONAL, INC.,
FIRST DATA CORPORATION,

Defendants-Appellees.

________________________
No. 18-5438

Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
No. 3:14-cv-01832—
Samuel H. Mays, Jr., District Judge.
Argued: December 6, 2018
Decided and Filed: May 3, 2019
Before: BATCHELDER, SUTTON, and
WHITE, Circuit Judges.

App.2a
SUTTON, Circuit Judge.
This case deals with a fading technology (checks)
and an evergreen imperative (Article III standing).
When a customer buys something with a check, merchants often consult a check verification company to
determine whether to accept the check. Invoking his
rights under the Fair Credit Reporting Act, James Huff
requested a copy of his file from a check verification
company called TeleCheck. The report omitted that
his driver’s license was linked to six different bank
accounts and omitted two transactions that occurred
on those accounts. Huff filed this lawsuit under the
Act. Because Huff has not shown that the incomplete
report injured him in any way, we affirm the district
court’s dismissal of his case for lack of standing.
I.
When a retail consumer offers a check to a merchant, the customer usually provides a form of identification such as a driver’s license. The merchant often
takes the bank account number on the check and the
driver’s license number, called identifiers, and sends
them to companies like TeleCheck. TeleCheck runs
each identifier through its system. If one of the identifiers has a debt on file, TeleCheck sends the merchant
a “Code 4”—what the industry calls a negative decline.
If there is not a debt on file, TeleCheck examines the
customer’s check-writing history to determine whether
to send a “Code 3”—what the industry calls a riskbased decline. If TeleCheck recommends a decline, the
merchant refuses the customer’s check. If there are
no debts on file and the customer presents a low risk,
TeleCheck approves the transaction, and the merchant
accepts the check.

App.3a
When a customer presents two identifiers in a
transaction, TeleCheck records a link between the identifiers in its system. If in a later transaction a customer
uses only one of those identifiers, TeleCheck recommends a Code 4 decline if there is a debt associated
with the presented identifier or the linked identifier.
Say a customer presents his driver’s license along with
a check to buy milk. That links his license number
and the account number on the check in TeleCheck’s
system. Then the customer bounces a check on the same
account. Now, when the customer tries to buy eggs
with a check from a different account and presents
his license, TeleCheck will see that an identifier linked
to the license—the bad bank account—shows a debt,
and it will issue a Code 4 decline. By contrast, linked
identifiers play no role in TeleCheck’s Code 3 decline
recommendations.
James Huff often pays by check. Inspired by a legal
services advertisement, Huff requested a copy of his
file from TeleCheck under the Fair Credit Reporting
Act. 15 U.S.C. § 1681g(a)(1). Huff provided TeleCheck
with only a copy of his driver’s license. As a result, the
report contained only the 23 transactions in which he
presented his license during the past year. But the
report also told Huff that TeleCheck had more information. A bolded disclaimer at the bottom of the report
read: “Linked Data: Your record is linked to information not included in this report, subject to identity
verification prior to disclosure. Please contact TeleCheck
at 1-800-366-1435 to verify Monday-Friday 830am430pm CST.” R. 78-6 at 3.
Huff did not call. He sued.
Huff’s driver’s license as it happens contains links
to six different bank accounts: his own account, his

App.4a
wife’s account, and four accounts that haven’t been
used for years. The accounts were linked because Huff
had presented his license in transactions alongside
checks from each of the accounts. In addition to leaving
off the linked accounts, the report did not reveal two
checks from those accounts over the past year that
were not presented with Huff’s license. One of the
checks was from Huff’s own account, and one was from
his wife’s.
TeleCheck has never told a merchant to decline
one of Huff’s checks due to his linked information.
After discovery, Huff moved for class certification,
and TeleCheck moved for summary judgment based on
lack of standing. The district court dismissed the
case because Huff lacked standing to bring it.
II.
Article III of the United States Constitution
limits the “judicial Power” of the federal courts to
deciding “Cases” and “Controversies.” U.S. Const. art.
III, § 2. That limitation checks the power of the judicial
branch by confining it to resolving concrete disputes,
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016),
and checks the power of the legislative branch by
prohibiting it from using the Judiciary as an adjunct
to its own powers, see Hagy v. Demers & Adams, 882
F.3d 616, 623 (6th Cir. 2018). To protect the vital,
but limited all the same, role of the Judiciary in our
system of government, the Constitution makes standing an indispensable ingredient of a judicial dispute.
To establish standing, Huff had to show three
things: (1) that he suffered an injury, (2) caused by
TeleCheck, (3) that a judicial decision could redress.

App.5a

Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992).

The burden of establishing standing rests with Huff,
and he must provide the allegations or evidence required at each stage of the litigation. Id. at 561. At
summary judgment, the current stage of this litigation,
Huff cannot rely on allegations alone but must set
forth evidence demonstrating his standing.

This case turns on the “[f]irst and foremost” prong
of that inquiry, injury in fact. Steel Co. v. Citizens for
a Better Env’t, 523 U.S. 83, 103 (1998). An injury in
fact must be real, not abstract, actual, not theoretical,
concrete, not amorphous. Spokeo, 136 S. Ct. at 1548.
Before turning to Huff’s efforts to satisfy this
requirement, it is well to keep in mind a distinction
that’s easy to miss in this area. There is a difference
between failing to establish the elements of a cause
of action and failing to show an Article III injury. One
is a failure of proof. The other is a failure of jurisdiction. Yes, there can be overlap between the two inquiries. But they are not one and the same.
Consider the distinction from this vantage point.
The Fair Credit Reporting Act creates a cause of action
that has three elements: (1) duty—a consumer agency
must disclose “[a]ll information in the consumer’s file”
upon request; (2) breach of duty—any consumer agency
that fails to meet this requirement is liable to the
affected individual; and (3) damages—the affected individual may recover $100 to $1000 for each willful
violation. 15 U.S.C. § 1681g(a)(1); see id. § 1681n(a)(1)(A).
In one way, Huff does not have a problem in
establishing injury. In answering TeleCheck’s motion
for summary judgment, Huff went beyond mere
allegations and tried to provide proof of each required

App.6a
element—including proof of a breach of duty that
creates a statutory injury—of the cause of action. If
he provided evidence checking each of these boxes,
that indeed satisfies the requirements under the statute
and indeed satisfies his burden of proof at this stage
of the case when it comes to the elements of the cause
of action.
But that leaves a different question: Does Congress
have authority to label this violation of the statutory
duty an Article III injury when it comes to Huff?
After Spokeo, we know there is no such thing as an
“anything-hurts-so-long-as-Congress-says-it-hurts
theory of Article III injury.” Hagy, 882 F.3d at 622.
That requires us to assess whether enforcement of this
cause of action, as invoked by Huff and as applied to
Huff, exceeds Congress’s power.
We see three ways in which Huff potentially could
satisfy Article III with this cause of action. One, the
statutory violation created an injury in fact as applied
to him because it actually injured him when the
violation led, say, to a check decline. Two, the statutory
violation did not injure him in any traditional way,
but the risk of injury was so imminent that it satisfies
Article III. Three, the statutory violation did not
create an injury in any traditional sense, but Congress
had authority to establish the injury in view of its
identification of meaningful risks of harm in this
area. Each possibility deserves its turn.

1.

Actual Injury as Applied to Huff?

Huff’s lawsuit does not satisfy the first option.
He does not allege, much less prove, harm in the fleshand-blood or dollars-and-cents sense of the term. By
way of examples: He does not claim that TeleCheck’s

App.7a
conduct caused a declined check or a denied rental
application. He does not suggest that he wasted time
or suffered emotional distress while looking for his
linked information. He does not contend that he
would have done anything with the missing information had he received it—say, by adjusting his spending
habits. All in all, Huff acknowledges that TeleCheck’s
incomplete report did not “have any effect on [him]
whatsoever.” R. 78-2 at 25.

2.

Risk of Imminent Injury as Applied to Huff?

The second option does not work either. The record
evidence does not show that TeleCheck created a risk
that Huff would suffer a check decline—or any other
harm covered by the statute—based on the checking
activities of the linked accounts. Quite the opposite
on this record.
A material risk of harm, it is true, may establish
standing. Spokeo, 136 S. Ct. at 1549. But the “threatened injury must be certainly impending to constitute injury in fact.” Clapper v. Amnesty Int’l USA, 568
U.S. 398, 409 (2013) (quotation omitted); see Soehlen
v. Fleet Owners Ins. Fund, 844 F.3d 576, 585 (6th Cir.
2017).
The risk that TeleCheck’s incomplete disclosure
would cause Huff to suffer a check decline was highly
speculative. Four of the linked accounts (whose precise
connection to Huff the record does not reveal) were
last used between 2008 and 2010, making it a virtual
certainty that no one would write a bad check on them
today. One of the other linked accounts was Huff’s
personal account, meaning he could not blame TeleCheck’s nondisclosure if he bounced a check on it.
The remaining account belonged to Huff’s wife. For

App.8a
Huff to suffer a check decline based on her account, his
wife would have to bounce a check with a TeleCheck
merchant, the merchant would have to report the debt
to TeleCheck, Huff’s wife would have to leave the
debt unresolved, and Huff would have to try to use a
check at a TeleCheck merchant while presenting his
driver’s license. The odds of that happening are remote.
The inescapable truth is that Huff has not suffered a
check decline in the five years since he requested his
file from TeleCheck.
The question, bear in mind, is not whether Huff
faces some risk of a check decline in general but what
additional risk of harm stems from TeleCheck’s
nondisclosure of Huff’s information. See Macy v. GC
Servs. Ltd., 897 F.3d 747, 758 (6th Cir. 2018) (risk of
harm must stem from the procedural violation). That
means we have to ask about the difference between
what Huff would have done with a report containing
the linked information and what he did with the report
he received. Huff offers no evidence that, had he
received what he wanted, he would have tried to delink
any accounts from his driver’s license. Nor has he
done so since acquiring that information. Full disclosure
by TeleCheck, in short, would not have reduced the
risk a merchant would decline Huff’s check.
Now that Huff has all the information he wants,
any remaining risk of a check decline flows from his
failure to delink the accounts, not TeleCheck’s failure
to disclose them in the first instance. Because Huff
has the power to eliminate any lingering risk of a
check decline based on a wrongly linked account, his
risk of harm does not amount to a concrete injury
caused by TeleCheck. See Bassett v. ABM Parking
Servs., Inc., 883 F.3d 776, 783 (9th Cir. 2018).

App.9a
Don’t forget one last point. TeleCheck alleviated
any risk of harm by including the linked data disclaimer. The disclaimer warned Huff that his “record is
linked to information not included in this report” and
instructed him to call to get his information. R. 78-6
at 3. Had he done so, Huff could have learned which
accounts TeleCheck linked him to, determined if
TeleCheck linked him to any accounts mistakenly,
and asked TeleCheck to delete any inappropriate links.
Courts assess injuries caused by the deprivation of
information based not only on the information the
consumer agency fails to provide but also on the
information it does provide. Dreher v. Experian Info.
Sols., Inc., 856 F.3d 337, 346 (4th Cir. 2017). Because
TeleCheck enabled, indeed encouraged, Huff to access
all the information he sought, its failure to disclose
the information created only a negligible risk that
Huff would suffer a check decline.

3.

Statutory Violation as Intangible Injury in Fact?

In the absence of a tangible injury or material
risk of harm, Huff offers a different theory of injury:
a statutory violation that created a procedural or
intangible injury. TeleCheck’s failure to provide him
with his linked accounts and the two missing transactions, he says, violated the Fair Credit Reporting Act.
The Act creates a duty—that a consumer agency must
disclose “[a]ll information in the consumer’s file” upon
request—and consequences for breaching that duty.
15 U.S.C. § 1681g(a)(1). And Huff has provided evidence of a breach of that duty. That’s all it takes, as
Huff sees it, to create a cognizable Article III injury.
Huff is right and wrong.

App.10a
Huff is right that intangible injuries premised
on statutory violations in some instances may satisfy
Article III’s injury-in-fact requirement. Spokeo, 136
S. Ct. at 1549. Historical practice and the judgment
of Congress help to determine whether an intangible
injury provides Article III standing. Id. Congress’s
judgment is “instructive and important,” id., and it
has some authority “to define injuries and articulate
chains of causation,” Lujan, 504 U.S. at 580 (Kennedy,
J., concurring in part and concurring in the judgment).
When Congress confers a procedural right to protect
a plaintiff’s concrete interests, a violation of that
right may establish the requisite injury in fact. See
Macy, 897 F.3d at 756.
Huff is wrong that Congress’s authority to create
Article III injuries has no boundaries, save limits
to congressional imagination or congressional selfrestraint. Separation-of-powers considerations preserve
an outer limit on Congress’s authority. “Article III
standing requires a concrete injury even in the context
of a statutory violation.” Spokeo, 136 S. Ct. at 1549;
see Lyshe v. Levy, 854 F.3d 855, 858 (6th Cir. 2017);
Wall v. Mich. Rental, 852 F.3d 492, 495 (6th Cir.
2017). If a claimant has not suffered a genuine harm
or risk of harm, a federal court has no business entertaining his lawsuit. Congress cannot conjure standing
by declaring something harmful that is not, by saying
anything causes injury because the legislature says
it causes injury. Hagy, 882 F.3d at 622. A difference
remains between injury in law and injury in fact.
Otherwise Congress (or a state legislature) could create
injuries in law that require the federal courts to issue
advisory opinions.

App.11a
As is sometimes the case with tricky legal problems, the border between what Congress may do in
creating cognizable intangible injuries and what it
may not do remains elusive. The Maginot Line comes
to mind as a metaphor for our efforts. But that’s only
because the federal courts have frequently allowed
Congress to create intangible injuries in the first place,
often for legitimate reasons. Still, the federal courts
must preserve a line, some line. Else Congress becomes
the author of the limitations on its own power, a
problem of greater magnitude. Cf. Marbury v. Madison,
5 U.S. (1 Cranch) 137, 177 (1803).
Huff’s claim falls on the wrong side of this line.
A few cases help to explain why, each involving a
statutory violation—and statutory injury—that did
not necessarily result in standing. Start with Spokeo
v. Robins, 136 S. Ct. 1540 (2016). In that case, the
Supreme Court noted that Congress enacted the Fair
Credit Reporting Act to curb the dissemination of
false information. Id. at 1550. But it recognized that
a violation of the law that results in the dissemination
of an objectively false report does not necessarily cause
a concrete harm if the disclosure has no consequences
for the consumer. Id. “[A] bare procedural violation,”
such as the dissemination of an incorrect zip code,
would not work a concrete harm for purposes of
Article III. Id.

Hagy v. Demers & Adams respected that principle

and elaborated on how it works. 882 F.3d 616 (6th
Cir. 2018). A creditor sent a letter to the lawyer of two
debtors and allegedly violated the Fair Debt Collection
Practices Act by failing to disclose that it came from
a debt collector. Id. at 619. Even if that action
violated the Act, we held, the debtors lacked standing

App.12a
because they could not point to any negative consequences, whether immediately or imminently, caused
by the violation. Id. at 622.
The Fourth Circuit looked at the problem the same
way in a case arising under the Fair Credit Reporting
Act, the same law at issue here. Dreher, 856 F.3d at
340. A consumer requested and received his file from
a credit agency under § 1681g. Id. The report did not
name the correct source of information about one of
his debts, as required by the Act, listing the name of
the debt’s original (but not current) owner. Id. at 341.
But the contact information in the report connected
the consumer to the right creditor all the same. Id.
Because the procedurally inadequate report did not
“adversely affect[ ] [the consumer’s] conduct in any
way,” the court found that the statutory violation did
not harm the consumer’s interests under the Act. Id.
at 347.
All three cases lead to the same destination.
TeleCheck’s alleged statutory violation did not harm
Huff’s interests under the Fair Credit Reporting Act
because it had no adverse consequences. In TeleCheck’s
system, linked accounts play a role only when one of
the accounts lists an active debt. None of the six
accounts linked to Huff’s driver’s license has ever
been associated with an outstanding debt. That means
the “linked data never affected, altered, or influenced
a single consumer report on [Huff].” R. 81 at 4. By
omitting the linked accounts and the missing transactions, TeleCheck at most prevented Huff from
delinking those accounts from his driver’s license.
But because the undisclosed information was irrelevant
to any credit assessment about Huff, delinking the
accounts would not have had any effect.

App.13a
Behind all of this stands an important principle.
Although Congress wields broad authority to define
injuries, it does not have a blank check. Hagy, 882
F.3d at 623. Any other conclusion would give Congress
the final say over the injury-in-fact limitations in
Article III, an outcome inconsistent with the architecture of the Constitution. The Framers feared an
overweening Congress, “every where extending the
sphere of its activity, and drawing all power into its
impetuous vortex.” The Federalist No. 48, at 241
(James Madison) (Terence Ball ed., 2003). To fend off
that possibility, they erected structural safeguards
throughout the National Charter. The horizontal
separation of powers prevents Congress from flattening
Article III’s limitations by defining harmless procedural
violations—or for that matter anything at all—as
injuries in fact. See Hagy, 882 F.3d at 623.
All of this still leaves Congress with plenty of
power to define and create intangible injuries. It just
has to explain itself in a way it never did here. In the
absence of an explanation of how a seemingly harmless
procedural violation constitutes a real injury, we are
left with a canyon-sized gap between Congress’s
authority and the problem it seeks to resolve.
Two analogies come to mind.
One comes from United States v. Lopez, 514 U.S.
549 (1995). The Supreme Court invalidated a federal
law banning firearms within a certain distance of
any school on the ground that it exceeded Congress’s
power “[t]o regulate Commerce . . . among the several
States.” U.S. Const. art. I, § 8, cl. 3; Lopez, 514 U.S.
at 567. Among other explanations for its decision,
the Court noted the lack of congressional findings
explaining how the law regulated interstate commerce.

App.14a

Lopez, 514 U.S. at 562-63. Congress amended the

statute to include such findings, see Violent Crime
Control and Law Enforcement Act of 1994, Pub. L. No.
103-322, § 320904, 108 Stat. 1796, 2125-26 (codified
as amended at 18 U.S.C. § 922(q)(1)); Lopez, 514 U.S.
at 563 n.4, and to include an interstate-jurisdictional
prerequisite for a prosecution, see Omnibus Consolidated Appropriations Act, 1997, Pub. L. No. 104-208,
§ 657, 110 Stat. 3009, 3009-369-71 (codified as amended
at 18 U.S.C. § 922(q)(2)). Since then, courts have
upheld the amended statute. See, e.g., United States
v. Dorsey, 418 F.3d 1038, 1046 (9th Cir. 2005); United
States v. Danks, 221 F.3d 1037, 1039 (8th Cir. 1999)
(per curiam).
The other comes from City of Boerne v. Flores,
521 U.S. 507 (1997). The Court invalidated the Religious Freedom Restoration Act as applied to the States
because it exceeded Congress’s enforcement power
under Section Five of the Fourteenth Amendment.
Id. at 536. Among other explanations for its decision,
the Court noted that Congress failed to provide a
legislative record documenting any pattern of religious liberty violations that would justify extending
the Act’s protections beyond the Court’s decisions
interpreting the Free Exercise Clause. Id. at 530-33.
After the decision, Congress enacted the Religious
Land Use and Institutionalized Persons Act, which cut
back on the scope of the law and supplied the necessary record to support the new law. See 146 Cong.
Rec. 16,698-700 (2000); H.R. Rep. No. 106-219, at 18-24
(1999). Subsequent challenges to the new law have
been rejected. See, e.g., Guru Nanak Sikh Soc. of Yuba
City v. County of Sutter, 456 F.3d 978, 993 (9th Cir.
2006); cf. Cutter v. Wilkinson, 544 U.S. 709, 714 (2005).

App.15a
Congressional findings are neither necessary nor
sufficient in every case. Congress is not an administrative agency, bound to record the reasoning behind
the statutes it enacts. See Turner Broad. Sys., Inc. v.
FCC, 512 U.S. 622, 666 (1994) (opinion of Kennedy,
J.). Nor will findings invariably salvage laws at
the edge of congressional power. See United States v.
Morrison, 529 U.S. 598, 614 (2000). But in the borderlands of congressional power to define intangible
injuries that satisfy Article III, a vexing area under
any circumstance, guidance about the ills a statute is
meant to remedy can instruct and guide.
Congress has not provided any such guidance here.
Had it explained why the type of incomplete disclosure
Huff received constitutes an injury in fact, our analysis
might well have been different. But because Congress
has not attempted to show how technical violations of
the Fair Credit Reporting Act that carry no actual consequences or real risk of harm are concrete injuries, we
must find that Huff has not been injured in this case.
Huff tries to counter this conclusion on two
grounds. Neither one is convincing.
Huff insists that TeleCheck’s failure to disclose
this information injured his concrete interests under
the Fair Credit Reporting Act by “robb[ing] [him] of
his right to monitor his file,” which prevented him
from disputing the accuracy of the links. Appellant’s
Br. 33. Regardless of whether he presented his driver’s
license alongside checks from the six missing accounts,
he explains, his license should not be linked to some
of the accounts because they don’t belong to him, and
he had no way of delinking them without knowing
about them.

App.16a
Assume for now that TeleCheck wrongly linked
Huff’s accounts. The linked information nonetheless
never made a difference in any credit determination,
meaning its continued existence in TeleCheck’s system
did not harm Huff’s concrete economic interests. See
Owner-Operator Indep. Drivers Ass’n v. U.S. Dep’t of
Transp., 879 F.3d 339, 345 (D.C. Cir. 2018). Confirming
the point, Huff never took any action after receiving
the undisclosed information, indicating he wouldn’t
have done anything even if he had received it earlier.

Public Citizen v. U.S. Department of Justice, 491
U.S. 440 (1989), and FEC v. Akins, 524 U.S. 11 (1998),
do not alter this conclusion. In those cases, the Court
held that a deprivation of information sufficed to provide standing because the plaintiffs would have used
the information to participate in the political process.
See Akins, 524 U.S. at 21; Pub. Citizen, 491 U.S. at
449. Here, in contrast, TeleCheck’s incomplete report
had no effect on Huff or his future conduct. See
Dreher, 856 F.3d at 346-47. The Act never attempts to
show how a technical impairment of a consumer’s
ability to monitor a credit report—that carries no actual
consequences for the consumer—rises to the level of
an Article III injury, even an Article III intangible
injury. See id. at 347. That leaves us with a “bare
procedural violation,” attenuated from any real harm
or imminent risk of harm, that Congress cannot
convert into Article III standing. Spokeo, 136 S. Ct.
at 1549; Hagy, 882 F.3d at 622.
Huff argues that Macy v. GC Services Ltd. shows
that the risk of a check decline created by TeleCheck’s
nondisclosure establishes standing. 897 F.3d 747 (6th
Cir. 2018). Macy, to start, involved a different law:
the Fair Debt Collection Practices Act. 15 U.S.C. § 1692

App.17a

et seq. Two debtors received a letter from a debt

collector notifying them that their credit card accounts
had been referred to the company for collection.
Macy, 897 F.3d at 751. The letter informed the
debtors that they could dispute their debt within 30
days, but it failed to say the dispute had to be “in
writing.” Id. That violated § 1692g(a), and the debtors
sued. We found the debtors had standing because the
debt collector’s failure to include the words “in writing”
created a material risk the debtors might forfeit
other protections for their concrete economic interests.
Id. at 758.
The Macy statute made a risk of harm far more
likely than this law does. In enacting the Fair Debt
Collection Practices Act, Congress sought to curb
abusive debt collection activities. Id. at 756; see 15
U.S.C. § 1692(e). In finding that the nondisclosure of
the “in writing” requirement posed a material risk of
harm, we observed that a written dispute triggered
other statutory protections, such as forcing the debt
collector to verify the debt and blocking the collector
from collecting the debt until completing the verification. Macy, 897 F.3d at 758; see 15 U.S.C. § 1692g(b).
An oral dispute would forfeit those protections. Macy,
897 F.3d at 758. Because Congress tied the writing
requirement to statutory protections of concrete economic interests, the failure to include the words “in
writing” created a material risk of harm.
The Fair Credit Reporting Act does not contain
such interlocking statutory protections. While it allows
consumers to look into and correct information in
their files, it does not provide a shield from imminent
economic harm in the way the Fair Debt Collection
Practices Act does. The Fair Credit Reporting Act’s

App.18a
main target is the dissemination of inaccurate and
harmful information, just as in Spokeo. See 136 S.
Ct. at 1550. Because TeleCheck’s nondisclosure never
harmed Huff, and because it did not create a material
risk that Huff would suffer a check decline, Huff has
not suffered an injury in fact.
The difference between Macy and this case comes
down to a difference in how Congress exercised its
power. In Macy, Congress did not trespass on Article
III because the statutory violation was closely connected
to real economic harm and thus amounted to an injury
in fact. In this instance, Congress crossed the line. It
has not shown how a deprivation of information that
neither holds consequences for the consumer nor
imposes a real risk of harm creates an injury. In the
absence of that showing, we have only Congress’s sayso, and that does not suffice—at least so long as the
federal courts preserve the Constitution’s structural
boundaries.
The dissent claims that we have “declare[d] the
Fair Credit Reporting Act unconstitutional as exceeding
Congress’s power to provide a judicial remedy for
statutory violations.” Infra, at 15. That overstates.
Just as no one can obtain an advisory opinion about
the meaning of this law or any other, no one can enforce
this law or any other without a concrete Article III
injury in fact. And even in this case, our decision does
not mean that TeleCheck’s alleged violations must
escape scrutiny. Regardless of Huff’s standing, the
Federal Trade Commission and other agencies have
both the authority to enforce compliance with the Act
and a sovereign interest in doing so. See 15 U.S.C.
§ 1681s.

App.19a
That leaves a perspective that has not been raised
in today’s case but may deserve consideration in a
future case. As Justice Thomas has pointed out, Article
III standing may draw a line between private and public
rights. With respect to statutes creating private rights
—that create duties owed to the plaintiffs as individuals—a bare statutory violation may suffice to establish standing. But with respect to statutes creating
public rights—that create duties owed to the
community as a whole—a bare statutory violation
may not suffice, and the plaintiff must show some
individual harm beyond the violation. See Spokeo,
136 S. Ct. at 1551-53 (Thomas, J., concurring); see
also Frank v. Gaos, 139 S. Ct. 1041, 1046-47 (2019)
(Thomas, J., dissenting). The theory deserves further
consideration at some point. It seems to respect history
and cuts a path in otherwise forbidding terrain. See
William Baude, Standing in the Shadow of Congress,
2016 Sup. Ct. Rev. 197, 227-31; Ann Woolhandler &
Caleb Nelson, Does History Defeat Standing Doctrine?,
102 Mich. L. Rev. 689, 693-712 (2004). But the theory
also raises questions of its own in an age of statutes.
Whatever is true of Congress’s power to create standing by statute would seem to hold for state legislatures
as well, posing another threat to Article III’s limits.
And even if the dichotomy between public and private
rights honors original meaning, what of laws that
use nominally private rights as a way of commissioning private attorneys general to enforce public
regulatory schemes—a modern reality without obvious
eighteenth-century heirs? What amounts to a public
right and what amounts to a private right may not be
easy to transpose today. Either way, clarification
from Congress about whether a right was meant to
protect personal or public interests would ease the

App.20a
judicial task. For now, under Spokeo and our own
decisions, Huff has failed to establish injury in fact.
We affirm.

App.21a
DISSENTING OPINION OF JUSTICE WHITE
HELENE N. WHITE, Circuit Judge, dissenting.
The majority declares the Fair Credit Reporting
Act (“FCRA”) unconstitutional as exceeding Congress’s power to provide a judicial remedy for statutory violations.1 Contrary to the majority’s conclusion,
Huff’s injury in fact was sufficiently concrete to satisfy
Article III standing requirements because (1) Congress
conferred on consumers like Huff the right to request
their entire file to protect their interest in having
only accurate information reported about them, and (2)
TeleCheck’s failure to provide Huff’s entire file created
a material risk that inaccurate information would be
reported about him and he would face a check decline.
Accordingly, I respectfully dissent.
This court recently held that the violation of a
procedural right granted by statute is sufficient to
constitute a concrete injury in fact where (1) “Congress
conferred the procedural right to protect a plaintiff’s
concrete interests” and (2) “the procedural violation
presents a material risk of real harm to that concrete
interest.” Macy v. GC Services Limited Partnership,
897 F.3d 747, 756 (6th Cir. 2018). Both requirements
are met here.
First, Congress conferred on consumers like Huff
the right to obtain their full file to protect their
interest in not having false credit information reported
about them. In enacting the FCRA, “Congress plainly
sought to curb the dissemination of false information
1 Although not stated, I presume this is an as-applied declaration of unconstitutionality.

App.22a
by adopting procedures designed to decrease that
risk.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1550
(2016). One such procedure is that “[u]pon request
and identification, the reporting agency is required to
divulge the information in its files concerning the
interested consumer.” Hovater v. Equifax, Inc., 823
F.2d 413, 417 (11th Cir. 1987) (citing 15 U.S.C. § 1681g).
“The purpose of the [FCRA’s] disclosure requirement
[in 15 U.S.C. § 1681g] is to provide the consumer
with an opportunity to dispute the accuracy of information in his file.” Hauser v. Equifax, Inc., 602 F.2d
811, 817 (8th Cir. 1979). Once the consumer identifies the allegedly inaccurate information, the FCRA
sets forth a detailed grievance procedure governing
how to correct that inaccuracy. 15 U.S.C. § 1681i. In
short, “[a] primary purpose[ ] of the statutory scheme
provided by the disclosure in § 1681g(a)(1) is to allow
consumers to identify inaccurate information in their
credit files and correct this information via the grievance procedure established under § 1681i.” Gillespie
v. Equifax Info. Servs., L.L.C., 484 F.3d 938, 941 (7th
Cir. 2007). Thus, Congress conferred on consumers
the procedural right to receive their file upon request
to reduce the concrete risk that inaccurate information
about them would be disclosed.
Second, TeleCheck’s failure to provide Huff with
the identifiers linked to him created a material risk
of real harm. Unbeknownst to Huff, TeleCheck linked
his driver’s license number with bank accounts that
were not his. When Huff exercised his right to receive
his file, TeleCheck failed to disclose those bank
accounts, and Huff therefore was unable to use the
FCRA’s grievance procedures to correct that information. Consequently, Huff was at risk of harm if one of

App.23a
those accounts developed a debt and Huff presented
his driver’s license while paying by check.
The majority disagrees that Huff faced a material
risk of real harm, distinguishing Macy on the basis
that unlike the protections in the Fair Debt Collection
Practices Act (“FDCPA”) at issue in Macy, the FCRA
does not contain “such interlocking statutory protections.” (Maj. Op. at 13.) However, the FCRA “interlocks”
the consumer’s right to his file with his ability to
correct inaccurate information through the FCRA’s
provided procedure. Moreover, it makes sense that
Congress would use different procedural protections
given the different purposes of the FCRA and
FDCPA. In other words, the method by which Congress chose to protect Huff’s interests under the
FCRA is a function of the harm he faced. Just as
notifying a debtor of the actions required to preserve
his rights minimizes the risk of abusive debt practices,
enabling a consumer, well-situated to detect his own
inaccurate information, to review his file minimizes
the risk of the disclosure of an inaccurate credit
report. By providing the incomplete file, TeleCheck
deprived Huff of the information necessary to dispute
the errantly linked accounts and thus created a
material risk that if one of those accounts developed
a debt, inaccurate information would be reported
about Huff, and Huff’s check would be declined. It
appears that the majority’s real quarrel is with Macy
itself; the majority would prefer a rule that requires
the plaintiff to show actual harm.
The cases relied on by the majority do not support
the conclusion that there was no material risk of
harm. Spokeo’ s example of an incorrect zip code
suggests a lower bar for risk of harm than the bar set

App.24a
by the majority here. 136 S. Ct. at 1550. Erroneously
linked identifying information presents a far greater
risk of harm than an incorrect zip code. Although it
is hard to imagine the risk of harm from an incorrect
zip code, the risk of linking an individual to accounts
not owned by him is apparent: TeleCheck effectively
tied Huff’s creditworthiness to another consumer’s,
and Huff faced the risk of TeleCheck erroneously
reporting a negative credit assessment solely because
of that.
Similarly, Hagy v. Demers & Adams, 882 F.3d 616
(6th Cir. 2018) is materially different from this case
because in Hagy, a creditor failed to provide the
required disclosure on a letter in which the creditor
discharged a debt. 882 F.3d at 622. Thus, unlike in
this case, the violation presented no risk of harm
because the creditor’s letter to the debtors was “good
news.” Id.
Finally, the majority’s reliance on Dreher v.
Experian Information Solutions, Inc., 856 F.3d 337
(4th Cir. 2017) is misplaced for at least two reasons.
Dreher applied the standard for informational injuries
formulated by Friends of Animals v. Jewell, 828 F.3d
989 (D.C. Cir. 2016), relying on the Supreme Court’s
decision in Federal Election Commission v. Akins, 524
U.S. 11 (1998). Under that standard, a plaintiff lacks
standing unless he is “‘denied access to information
required to be disclosed by statute, and he ‘suffers,
by being denied access to that information, the type
of harm Congress sought to prevent by requiring disclosure.’” 856 F.3d at 345-46 (quoting Jewell, 828
F.3d at 992) (emphasis omitted). That standard is
different from the one based on Spokeo articulated by
Macy because it requires that the consumer suffer a

App.25a
“harm” rather than simply face the “risk” of harm.
Macy, 897 F.3d at 756. Second, before the Dreher
court even considered whether the violation “adversely
affected” the consumer’s conduct, it concluded that
the harm the consumer claimed—what the court called
a “customer-service” harm—“is not the type of harm
Congress sought to prevent when it enacted the
FCRA.” 856 F.3d at 346. The court explained: “Failing
to identify either a common law analogue or a harm
Congress sought to prevent, [the consumer] is left with
a statutory violation divorced from any real world
effect.” Id. (emphasis added). Here, however, Huff
claims a risk of harm to a concrete interest that Congress sought to prevent—an inaccurate credit report
based on bank accounts that are not his.
The majority also errs in suggesting that Congress
should have “explain[ed] itself” and did not when it
allowed a customer to sue after receiving an incomplete
file. (Maj. Op. at 10.) As an initial matter, even if an
explanation were necessary here, Congress did provide
such an explanation. Rather than the “canyon-sized
gap between Congress’s authority and the problem it
seeks to resolve” perceived by the majority (id.), Congress closely tied the right to disclosure of one’s
entire file to the legitimate purpose of preventing the
report of inaccurate information to others. Congress
established the disclosure requirement to enable a
consumer to correct inaccurate information in his or
her file, thereby reducing the risk of an inaccurate
credit report. Moreover, the majority supplies little
basis for faulting Congress for failing to connect the
procedural violation with the risk of harm. Spokeo
does not impose such an obligation, and the majority’s
only authority is its analogy to United States v. Lopez,

App.26a
514 U.S. 549 (1995) and City of Boerne v. Flores, 521
U.S. 507 (1997). However, neither Lopez nor City of
Boerne involved limits on Congress’s power to provide a judicial remedy for statutory harms under
Article III standing requirements.
For the above reasons, I respectfully dissent.

App.27a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT OF
TENNESSEE, NASHVILLE DIVISION
(MARCH 30, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
JAMES HUFF,

Plaintiff,
v.
TELECHECK SERVICES, INC.,
TELECHECK INTERNATIONAL, INC., and
FIRST DATA CORPORATION,

Defendants.

________________________
No. 3:14-cv-01832

Before: Samuel H. MAYS, JR.,
United States District Judge.
Plaintiff James Huff brings this action against
Defendants Telecheck Services, Inc., Telecheck International, Inc., and First Data Corporation, alleging
violation of Section 1681g of the Fair Credit Reporting
Act (“FCRA”), 15 U.S.C. §§ 1681, et seq.
Before the Court are two motions. The first is
Plaintiff’s September 12, 2017 Motion for Class Certif-

App.28a
ication. (ECF No. 70; see also ECF Nos. 71-72.) Defendants replied on October 20, 2017. (ECF No. 84.)
Plaintiff replied on November 13, 2017. (ECF No. 92.)
Defendants filed their sur-reply on December 7,
2017. (ECF No. 102.)
The second is Defendants’ October 20, 2017 Motion
for Summary Judgment. (ECF No. 77; see also ECF No.
78.) Plaintiff responded on November 27, 2017. (ECF
No. 97.) Defendants replied on December 11, 2017.
(ECF No. 103.)
For the following reasons, Defendants’ Motion
for Summary Judgment is GRANTED and Plaintiff’s
Motion for Class Certification is DENIED AS MOOT.
I.

Background

In January 2013, Plaintiff called Defendants to
request a copy of his Telecheck File Report (“TFR”), a
consumer disclosure. (ECF No. 98 at 2349.)1 Defendants
instructed Plaintiff to send “a copy of [his] driver’s
license and a small write-out of why [he] was asking
for the information.” (ECF No. 78-2 at 1321.) On January 15, 2013, Plaintiff mailed a letter to Defendants
requesting his TFR and providing a copy of his
driver’s license. (Id. at 1323.)
On January 29, 2013, Plaintiff received his TFR.
(ECF No. 98 at 2351.) The TFR included Plaintiff’s
name, address, and a truncated version of his Tennessee
driver’s license number. (ECF No. 78-6 at 1350.) The
TFR stated that neither a social security number nor
a banking number was provided. (Id.) The TFR also
1 Unless otherwise noted, all pin cites for record citations are to
the “PageID” page number.

App.29a
stated that “[t]he contents of your TeleCheck file are
based upon information that you have provided and
may be limited based upon that information.” (Id. at
1352.)
Plaintiff’s TFR contained twenty-three transactions
that had occurred in the twelve months prior to the
date that the TFR was prepared. (ECF No. 98 at 2352.)
Plaintiff’s TFR did not list a transaction in Plaintiff’s
checking account at the Bank of Putnam County—a
$16.75 transaction at K-Mart in August 2012. (Id. at
2354-55.) Plaintiff’s TFR also did not list a transaction
in Plaintiff’s wife’s account—a $36.21 transaction at
AutoZone in November 2012. (Id. at 2355.)
On September 12, 2014, Plaintiff filed his Complaint against Defendants alleging violation of FCRA.
(ECF No. 1.)
II.

Jurisdiction

The Court has federal-question jurisdiction. Under
28 U.S.C. § 1331, U.S. district courts have original
jurisdiction “of all civil actions arising under the Constitution, laws, or treaties of the United States.” The
Complaint asserts that Defendants violated “the FCRA,
including but not limited to the provisions contained
in 15 U.S.C. § 1681g(a)(1)-(4).” (Id. at 1.) Plaintiff’s
claim arises under the laws of the United States.
III. Standard of Review
Under Federal Rule of Civil Procedure 56, a court
shall grant a party’s motion for summary judgment
“if the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).

App.30a
The moving party can meet this burden by pointing
out to the court that the nonmoving party, having
had sufficient opportunity for discovery, has no evidence
to support an essential element of its case. See Fed.
R. Civ. P. 56(c)(1); Asbury v. Teodosio, 412 F. App’x
786, 791 (6th Cir. 2011) (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23 (1986)).
When confronted with a properly-supported motion
for summary judgment, the nonmoving party must set
forth specific facts showing that there is a genuine
dispute for trial. See Fed. R. Civ. P. 56(c). “A genuine
dispute exists when the plaintiff presents significant
probative evidence on which a reasonable jury could
return a verdict for her.” EEOC v. Ford Motor Co.,
782 F.3d 753, 760 (6th Cir. 2015) (quotation marks
omitted). The nonmoving party must do more than
simply “‘show that there is some metaphysical doubt
as to the material facts.’” Adcor Indus., Inc. v. Bevcorp,
LLC, 252 F. App’x 55, 61 (6th Cir. 2007) (quoting
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986)).
A party may not oppose a properly supported
summary judgment motion by mere reliance on the
pleadings. See Beckett v. Ford, 384 F. App’x 435, 443
(6th Cir. 2010) (citing Celotex Corp., 477 U.S. at 324).
Instead, the nonmoving party must adduce concrete
evidence on which a reasonable juror could return a
verdict in its favor. Stalbosky v. Belew, 205 F.3d 890,
895 (6th Cir. 2000); see Fed. R. Civ. P. 56(c)(1). The
court does not have the duty to search the record for
such evidence. See Fed. R. Civ. P. 56(c)(3); InterRoyal
Corp. v. Sponseller, 889 F.2d 108, 111 (6th Cir. 1989).
Although summary judgment must be used carefully, it “is an integral part of the Federal Rules as a

App.31a
whole, which are designed to secure the just, speedy,
and inexpensive determination of every action[,] rather
than a disfavored procedural shortcut.” FDIC v. Jeff
Miller Stables, 573 F.3d 289, 294 (6th Cir. 2009)
(quotation marks and citations omitted).
IV. Analysis
Defendants argue that they are entitled to summary judgment because Plaintiff lacks standing.
(ECF No. 78 at 1289-98.) Plaintiff responds that he
has standing because Defendants’ “failure to fulfil
[their] legal obligation to disclose all information in
[Plaintiff’s] file request” violates the FCRA’s purpose
“to ensure accuracy in credit reporting” and “inhibit[ed]
[Plaintiff’s] ability to monitor [the] accuracy” of his
credit report. (ECF No. 97 at 2296.) Plaintiff also argues
that the missing transactions in his TFR “presented
a risk that undisclosed inaccurate information would
remain in his file. This is the precise risk contemplated by the FCRA.” (Id.)
“[T]he ‘irreducible constitutional minimum of
[Article III] standing’” requires that “[t]he plaintiff
must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016) (citing Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992)). Plaintiff bears
the burden of demonstrating those elements “for each
claim he seeks to press.” DaimlerChrysler Corp. v.
Cuno, 547 U.S. 332, 352 (2006).
Article III requires an injury to be “concrete,”
meaning that it must be “real” and not “abstract.”
Spokeo, 136 S. Ct. at 1548. “[I]ntangible injuries can

App.32a
[ ] be concrete.” Id. at 1550 (citing Pleasant Grove City
v. Summum, 555 U.S. 460 (2009)). To determine whether an intangible injury is sufficiently concrete, “both
history and the judgment of Congress are instructive.”2
Id. at 1549. Although Congress may lend its judgment to courts, its power is not plenary. “Spokeo
emphasized that Congress could not erase Article
III’s standing requirements by statutorily granting
the right to sue.” Lyshe v. Levy, 854 F.3d 855, 858
(6th Cir. 2017) (internal quotations and citations
omitted); see Hagy v. Demers & Adams, No. 17-3696,
2018 WL 914953, at *4 (6th Cir. Feb. 16, 2018) (“Although Congress may ‘elevate’ harms that ‘exist’ in
the real world . . . it may not simply enact an injury
into existence, using its lawmaking power to transform
something that is not remotely harmful into something
that is.”).
A plaintiff may not “allege a bare procedural
violation [of a statute], divorced from any concrete
harm, and satisfy the injury-in-fact requirement of
Article III.” Spokeo, 136 S. Ct. at 1549 (citing Summers
v. Earth Island Institute, 555 U.S. 488, 496 (2009));
see id. at 1550 (“A violation of one of the FCRA’s
procedural requirements may result in no harm”). “It
is difficult to imagine,” for example, “how the dissemination of an incorrect zip code, without more, could
work any concrete harm.” Id. at 1550. Spokeo directs
courts to determine “whether the particular procedural violations alleged in th[e] case entail a degree
2 Plaintiff does not allege that his theory of injury is grounded
in history, and the Court finds no historical predicate for the
injury alleged. Thus, the Court focuses only on whether Congress’s creation of a statutory injury satisfies Article III’s standing requirement.

App.33a
of risk sufficient to meet the concreteness requirement.”

Id.

The District of Columbia Circuit and the Fourth
Circuit have reasoned that a plaintiff suffers a concrete
informational injury where “(1) [he] has been deprived
of information that . . . a statute requires the government or a third party to disclose . . . and (2) [he] suffers,
by being denied access to that information, the type of
harm Congress sought to prevent by requiring disclosure.” Friends of Animals v. Jewell, 828 F.3d 989,
992 (D.C. Cir. 2016); see Dreher v. Experian Information Solutions, Inc., 856 F.3d 337, 345-46 (4th Cir.
2017) (“We find [the D.C. Circuit’s] reasoning persuasive.”); see also Shoots v. iQor Holdings US Inc., No. 15cv-563, 2016 WL 6090723, at *7 (D. Minn. Oct. 18,
2016) (“The D.C. Circuit has recently developed a
two-part framework for assessing standing cases based
on informational injury that—in this Court’s view—
properly summarizes the lessons from Public Citizen,
Akins, and Spokeo.”).
Even assuming Plaintiff was deprived of information that § 1681g requires Defendants to disclose,3
3 Plaintiff and Defendants dispute whether 15 U.S.C. § 1681g
requires Defendants to disclose the allegedly missing transactions in Plaintiff’s TFR. Defendants contend that “[t]he credit
information of a third party is not subject to disclosure under
§ 1681g. . . . [t]herefore, the omission of information about
[Plaintiff’s] wife’s account from his TFR does not constitute a
violation of the FCRA.” (ECF No. 78 at 1300.) Plaintiff argues that
“the FCRA required that [Defendant] disclose information about
[Plaintiff’s] wife’s identifiers linked to [Plaintiff’s] driver[’s] license
because they were part of his file and are included in the requirement to disclose ‘all information’ in his file.” (ECF no. 97 at 2306.)
Because Plaintiff did not suffer a concrete injury, the Court
need not reach the question of whether 15 U.S.C. § 1681g requires

App.34a
Plaintiff lacks standing. Plaintiff did not suffer the
type of harm Congress sought to prevent by requiring
disclosure. Congress enacted FCRA to ensure “‘fair
and accurate credit reporting’” and to provide procedures to “curb the dissemination of false information.”
Spokeo, 136 S. Ct. at 1545, 1550 (internal quotations
omitted); see Guimond v. Trans Union Credit Info. Co.,
45 F.3d 1329, 1333 (9th Cir. 1995) (FCRA “was crafted
to protect consumers from the transmission of inaccurate information about them, and to establish credit
reporting practices that utilize accurate, relevant,
and current information in a confidential and responsible manner”). Congress also sought to address “the
inability at times of the consumer to know he is being
damaged by an adverse credit report,” the lack of
“access to the information in his file,” the “difficulty
in correcting inaccurate information,” and “getting
his version of a legitimate dispute recorded in his
credit file.” S. Rep. No. 91–517, at 3 (1969).
Plaintiff has not shown that Congress’s concerns
are implicated. Plaintiff alleges that two transactions
were missing from his TFR. (ECF No. 98 at 2354-55)
Plaintiff concedes that the undisclosed transactions
were accurate. (ECF No. 78-2 at 1326-27.) Plaintiff
also concedes that the undisclosed transactions did
not prevent him from obtaining credit or from renting
an apartment or house and did not “have any effect
on [him] whatsoever.” (Id. at 1329.) Defendants’ alleged
statutory violation did not transmit any false information about Plaintiff or cause Plaintiff to be harmed
by an inaccurate credit report.
Defendants to disclose the missing transactions in Plaintiff’s
TFR.

App.35a
Plaintiff argues that “[o]ther courts have held
that failure to make disclosures mandated by statute
constitute concrete injury sufficient to confer standing
under Spokeo.” (ECF No. 97 at 2296.) Plaintiff cites
two district court cases: Patel v. Trans Union LLC,
No. 14-cv-00522, 2016 WL 6143191 (N.D. Cal. Oct. 21,
2016) and Stokes v. Realpage, Inc., Nos. 15-1520, 152894, 2016 WL 6095810 (E.D. Pa. Oct. 19, 2016).
Plaintiff also cites an unpublished Sixth Circuit case,
Galaria v. Nationwide Mutual Ins. Co., 663 F. App’x
384 (6th Cir. 2016).
In Patel, plaintiff brought suit under § 1681g of
FCRA alleging that the defendants had “failed to
send him his complete file” when plaintiff requested
it. Patel, 2016 WL 6143191, at *1. The court held that
plaintiff’s claim satisfied Article III standing because
the withheld information was inaccurate and caused
harm to plaintiffs. Id. at *3-4. The court found that
the withheld portion of plaintiff’s consumer information report contained false information about plaintiff’s
criminal history. Id. at *3. Those “alleged inaccuracies
—being wrongly branded a potential terrorist, or
wrongly ascribed a criminal record—are themselves
concrete harms.” Id. at *3. The court reasoned that “a
failure to disclose will seem all the more injurious
where it is linked to undeniably harmful false information.” Id. at *4.
Unlike Patel, there was no false or inaccurate
information here. The allegedly missing information
in Plaintiff’s TFR did not label him a terrorist or
criminal. Plaintiff acknowledges that the two missing
transactions were accurate. (ECF No. 78-2 at 1326-27.)
Like the dissemination of an incorrect zip code, the
non-disclosure of two transactions, without more,

App.36a
could work no concrete harm. See Spokeo, 136 S. Ct.
at 1550.
In Stokes, plaintiff alleged that defendant had
violated § 1681g of FCRA by failing to provide her
with an accurate copy of her consumer report. Stokes,
2016 WL 7197391, at *1. Plaintiff requested her report
after defendant had “improperly reported to . . . a
prospective landlord, that [plaintiff] was a defendant
in several criminal cases, the records of which had
been previously expunged.” Id. Because of that inaccurate information, the potential landlord, and a second
housing facility, denied plaintiff’s housing applications. Id. at *1-2.
The court denied the defendant’s motion to dismiss
for lack of standing. Id. at *7. The court noted that
FCRA’s legislative history “emphasized that the
consumer has a right to know when he is being turned
down for credit, insurance, or employment because of
adverse information in a credit report and to correct
any erroneous information in his credit file.” Id. at *6
(internal quotations omitted (emphasis in original)).
The court reasoned that defendant’s failure to provide
the requested information implicated “the core of the
interests Congress sought to protect” by enacting
FCRA. Id. at *7. Plaintiff’s injury was sufficiently
concrete because she alleged “both the dissemination
of inaccurate information about a consumer, and a
failure to disclose the source of that information to
the consumer.” Id.
Unlike Stokes, Plaintiff was not turned down for
credit, insurance, employment, or housing because of
any missing information in his TFR. (ECF No. 78-2 at
1329.) Plaintiff also admits that the allegedly missing
information was accurate. (Id. at 1326-27.) The alleged-

App.37a
ly incomplete TFR, by itself, did not implicate FCRA’s
concern, allowing consumers to correct erroneous information in their records, because there was no erroneous
information for Plaintiff to correct.4
Plaintiff’s reliance on Galaria is also misplaced.
Plaintiff’s alleged injury does not “entail a degree of
risk sufficient to meet the concreteness requirement.”
Spokeo, 136 S. Ct. at 1550. Plaintiffs in Galaria brought
suit under FCRA after hackers stole their personal
information from defendants. The plaintiffs alleged
that, as a result of the breach, they “suffered, and
will continue to suffer costs—both financial and
temporal—that include purchasing credit reporting
services, purchasing credit monitoring and/or internet
monitoring services, frequently obtaining, purchasing
and reviewing credit reports, bank statements, and
other similar information, instituting and/or removing
credit freezes and/or closing or modifying financial
accounts.” Galaria, 663 F. App’x at 386-87. The court
held that plaintiffs had satisfied the injury-in-fact
requirement although the hackers had not yet used
plaintiffs’ information against them. Id. at 387-89.
The injury was sufficiently concrete because the theft
4 The reasoning in Stokes is unpersuasive because the district
court relied on Church v. Accretive Health, Inc., 654 F. App’x.
990 (11th Cir. 2016). Church held that, although an alleged
violation of the Fair Debt Collection Practices Act (“FDCPA”)
“may not have resulted in tangible economic or physical harm
that courts often expect,” plaintiff had alleged a concrete injury
because the “injury is one that Congress has elevated to the status of
a legally cognizable injury through the FDCPA.” Church, 654 F.
App’x at 995. The Sixth Circuit has “considered and rejected
. . . any reliance on Church.” Hagy v. Demers & Adams, No. 173696, 2018 WL 914953, at *4 (6th Cir. Feb. 16, 2018) (citing
Lyshe v. Levy, 854 F.3d 855, 860-61 (6th Cir. 2017)).

App.38a
of plaintiffs’ information constituted “a substantial
risk of harm, coupled with reasonably incurred mitigation costs.” Galaria, 663 F. App’x at 385, 388.
Plaintiff does not face a substantial risk of harm,
nor has he incurred any mitigation costs. Plaintiff
admits that he has not “suffer[ed] any psychological
harm” or “emotional distress” as a result of the missing
information in his report. (ECF No. 78-2 at 1329.)
Plaintiff also did not “lose money because of the contents of this report.” (Id.) Indeed, the missing information had “[no] effect on [Plaintiff] whatsoever.” (Id.)
Plaintiffs’ personal information in Galaria had “already
been stolen and [was] now in the hands of ill-intentioned criminals.” Galaria, 663 F. App’x at 388. The
missing information in Plaintiff’s TFR has not been
stolen and has “never affected, altered, or influenced
a single consumer report on Plaintiff.” (ECF No. 81
at 1569.) Because the two missing transactions in
Plaintiff’s TFR were accurate, their communication
to third parties would have conferred no harm on
Plaintiff.
Having failed to identify a concrete harm or risk
of harm that Congress sought to prevent by requiring
disclosure, Plaintiff “is left with a statutory violation
divorced from any real world effect.” Dreher, 856
F.3d at 347. Defendants’ failure to include two transactions in Plaintiff’s TFR had no practical effect on
Plaintiff. A statutory violation, by itself, is insufficient to confer standing. See Hagy, 2018 WL 914953,
at *4.
Because Plaintiff has failed to demonstrate that
he has suffered a concrete injury sufficient to confer
Article III standing, “the court cannot proceed at all.”
Ex parte McCardle, 7 Wall. 506, 514 (1868). “[T]he

App.39a
only function remaining to the court is that of announcing the fact and dismissing the cause.” Id. Defendants’ Motion for Summary Judgment is GRANTED,
and Plaintiff’s Motion for Class Certification is DENIED
AS MOOT.
V.

Conclusion

For the foregoing reasons, Defendants’ Motion for
Summary Judgment is GRANTED and Plaintiff’s
Motion for Class Certification is DENIED AS MOOT.
So ordered this 30th day of March, 2018.
/s/ Samuel H. Mays, Jr.
Samuel H. Mays, Jr.
United States District Judge

App.40a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE SIXTH CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(JULY 19, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
JAMES HUFF, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff-Appellant,
v.
TELECHECK SERVICES, INC.;
TELECHECK INTERNATIONAL, INC.;
FIRST DATA CORPORATION,

Defendants-Appellees.

________________________
No. 18-5438

Before: BATCHELDER, SUTTON, and
WHITE, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision. The petition then was circulated
to the full court. Less than a majority of the judges
voted in favor of rehearing en banc.

App.41a
Therefore, the petition is denied. Judge White
would grant rehearing for the reasons stated in her
dissent.
Entered by Order of the Court
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App.42a
RELEVANT STATUTORY PROVISIONS
FAIR CREDIT REPORTING ACT
15 U.S.C. § 1681 et seq.
15 U.S.C. § 1681.
Congressional findings and statement of purpose
(a) Accuracy and fairness of credit reporting
The Congress makes the following findings:
(1) The banking system is dependent upon fair
and accurate credit reporting. Inaccurate credit
reports directly impair the efficiency of the banking
system, and unfair credit reporting methods undermine the public confidence which is essential to the
continued functioning of the banking system.
(2) An elaborate mechanism has been developed for
investigating and evaluating the credit worthiness,
credit standing, credit capacity, character, and
general reputation of consumers.
(3) Consumer reporting agencies have assumed a
vital role in assembling and evaluating consumer
credit and other information on consumers.
(4) There is a need to insure that consumer reporting
agencies exercise their grave responsibilities with
fairness, impartiality, and a respect for the consumer’s right to privacy.
(b) Reasonable procedures
It is the purpose of this subchapter to require
that consumer reporting agencies adopt reasonable
procedures for meeting the needs of commerce
for consumer credit, personnel, insurance, and

App.43a
other information in a manner which is fair and
equitable to the consumer, with regard to the
confidentiality, accuracy, relevancy, and proper
utilization of such information in accordance with
the requirements of this subchapter.
15 U.S.C. § 1681a.
Definitions; Rules of Construction
(a) Definitions and rules of construction set forth in
this section are applicable for the purposes of
this subchapter.
[***]
(d) Consumer report
(1) In general
The term “consumer report” means any written,
oral, or other communication of any information by
a consumer reporting agency bearing on a consumer’s credit worthiness, credit standing, credit
capacity, character, general reputation, personal
characteristics, or mode of living which is used or
expected to be used or collected in whole or in part
for the purpose of serving as a factor in establishing the consumer’s eligibility for—
(A) credit or insurance to be used primarily for
personal, family, or household purposes;
(B) employment purposes; or
(C) any other purpose authorized under section
1681b of this title.
[***]
(g) The term “file”, when used in connection with
information on any consumer, means all of the

App.44a
information on that consumer recorded and
retained by a consumer reporting agency regardless of how the information is stored.
[***]
15 U.S.C. § 1681g.
Disclosures to consumers
(a) Information on file; sources; report recipients
Every consumer reporting agency shall, upon
request, and subject to section 1681h(a)(1) of this
title, clearly and accurately disclose to the consumer:
(1) All information in the consumer’s file at the
time of the request, except that—
(A) if the consumer to whom the file relates
requests that the first 5 digits of the
social security number (or similar identification number) of the consumer not
be included in the disclosure and the
consumer reporting agency has received
appropriate proof of the identity of the
requester, the consumer reporting agency
shall so truncate such number in such
disclosure; and
(B) nothing in this paragraph shall be construed to require a consumer reporting
agency to disclose to a consumer any
information concerning credit scores or
any other risk scores or predictors relating to the consumer.
(2) The sources of the information; except that
the sources of information acquired solely

App.45a
for use in preparing an investigative consumer
report and actually used for no other purpose need not be disclosed: Provided, that in
the event an action is brought under this
subchapter, such sources shall be available
to the plaintiff under appropriate discovery
procedures in the court in which the action
is brought.
[***]
15 U.S.C. § 1681h.
Conditions and form of disclosure to consumers
(a) In general
(1) Proper identification.—A consumer reporting
agency shall require, as a condition of making the
disclosures required under section 1681g of this
title, that the consumer furnish proper identification.
(2) Disclosure in writing.—Except as provided in
subsection (b), the disclosures required to be
made under section 1681g of this title shall be
provided under that section in writing.
[***]
15 U.S.C. § 1681n.
Civil liability for willful noncompliance
(a) In general
Any person who willfully fails to comply with
any requirement imposed under this subchapter
with respect to any consumer is liable to that
consumer in an amount equal to the sum of—

App.46a
(1)
(A) any actual damages sustained by the
consumer as a result of the failure or
damages of not less than $100 and not
more than $1,000; or
(B) in the case of liability of a natural person
for obtaining a consumer report under
false pretenses or knowingly without a
permissible purpose, actual damages sustained by the consumer as a result of the
failure or $1,000, whichever is greater;
(2) such amount of punitive damages as the
court may allow; and
(3) in the case of any successful action to enforce
any liability under this section, the costs of
the action together with reasonable attorney’s fees as determined by the court.
(b) Civil liability for knowing noncompliance
Any person who obtains a consumer report from
a consumer reporting agency under false pretenses
or knowingly without a permissible purpose shall
be liable to the consumer reporting agency for
actual damages sustained by the consumer reporting agency or $1,000, whichever is greater.
(c) Attorney’s fees
Upon a finding by the court that an unsuccessful
pleading, motion, or other paper filed in connection
with an action under this section was filed in bad
faith or for purposes of harassment, the court shall
award to the prevailing party attorney’s fees

App.47a
reasonable in relation to the work expended in
responding to the pleading, motion, or other paper.
[***]
15 U.S.C. § 1681o.
Civil liability for negligent noncompliance
(a) In general
Any person who is negligent in failing to comply
with any requirement imposed under this subchapter with respect to any consumer is liable to
that consumer in an amount equal to the sum of—
(1) any actual damages sustained by the consumer as a result of the failure; and
(2) in the case of any successful action to enforce
any liability under this section, the costs of
the action together with reasonable attorney’s fees as determined by the court.
(b) Attorney’s fees
On a finding by the court that an unsuccessful
pleading, motion, or other paper filed in connection
with an action under this section was filed in bad
faith or for purposes of harassment, the court shall
award to the prevailing party attorney’s fees
reasonable in relation to the work expended in
responding to the pleading, motion, or other paper.

App.48a
ORAL DEPOSITION OF STEPHEN B. MOORE—
RELEVANT EXCERPTS
(AUGUST 9, 2017)
IN THE UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
JAMES HUFF, Individually and
on Behalf of All Others Similarly Situated,

Plaintiff,
v.
TELECHECK SERVICES, INC.,
TELECHECK INTERNATIONAL, INC., and
FIRST DATA CORPORATION,

Defendants.

________________________
No. 3:14-1832

Before: MAYS, Judge.,
FRENSLEY, Magistrate Judge.
ORAL DEPOSITION of STEPHEN B. MOORE,
produced as a witness at the instance of the
PLAINTIFF AND THE PUTATIVE CLASS, and duly
sworn, was taken in the above-styled and numbered
cause on AUGUST 9, 2017, from 1:02 p.m. to 5:14
p.m., before Stephanie M. Harper, RPR, CSR in and
for the State of Texas, recorded by machine shorthand, at the offices of OGLETREE, DEAKINS, NASH,

App.49a
SMOAK & STEWART, P.C., 500 Dallas Street, Suite
3000, Houston, Texas, pursuant to the Federal Rules
of Civil Procedure and the provisions stated on the
record or attached hereto; that the deposition shall
be read and signed before any notary public.
For Plaintiff
Mr. Martin D. Holmes
Dickinson Wright PLLC
424 Church Street, Suite 800
Nashville, Tennessee 37219
(615) 244-6538
mdholmes@dickinsonwright.com
- and Mr. Scott A. Petz
Dickinson Wright PLLC
2600 West Big Beaver Road, Suite 300
Troy, Michigan 48084
(313) 223-3868
spetz@dickinsonwright.com
for Defendants:
Mr. Christopher P. Demetriades
First Data Corp
3975 North West 120th Avenue
Coral Springs, Florida 33065
(954) 845-4550
christopher.demetriades@firstdata.com
- and Mr. David R. Esquivel
Bass Berry Sims
150 Third Avenue South, Suite 2800
Nashville, Tennessee 37201
(615) 742-6285

App.50a
desquivel@bassberry.com

[August 9, 2017 Transcript, p.5]
STEPHEN B. MOORE, having been first duly sworn,
testified as follows:
EXAMINATION
BY MR. HOLMES:
Q.

State your full name, please.

A.

Stephen Benjamin Moore.

Q.

Mr. Moore, my name is Martin Holmes, and I
represent James Huff and the putative class in a
lawsuit that has been filed against TeleCheck
Services, Inc.; TeleCheck International, Inc.; and
First Data Corporation.
You’ve been designated as what’s called a corporate
designee under the federal rules to testify about
certain topics on behalf of the corporation.
Is that your understanding?

A.

Yes, sir.

Q.

And the way we’re going to handle this is that
I’m going to try to reference the deposition topics
as we go along, and then at some point the
defendants’ attorney may say it’s outside the
scope or later has reserved the right to say it’s
outside the scope of the topics. And if that turns
out to be the case, then the testimony would be
in your individual capacity. I just thought this
was the most efficient way to do it instead of
saying this part of the deposition is for . . .

App.51a
[...]
. . . from/to a consumer. And this is related to
the TeleCheck file report. So, I mean, we’ve—we
ventured off on a decline call, so let’s—let’s focus
now on a follow-up.
So from September 2012 to the present, if a
consumer called back after receiving their Tele—the TeleCheck file report, was there a procedure in place for dealing with those calls?
A.

Yes.

Q.

And what was the procedure?

A.

The procedure is to actually call the (800) 3661435, which is on the actual file report that
routes directly to my department. And if the
consumer has a dispute or whatever have you, you
know, with the TeleCheck file report they received,
then that would be investigated by my team.

Q.

And when you say “dispute about their TeleCheck
file report,” what do you mean?

A.

A person—you know, they could have a debt on
there that they’re saying, well, you know, “That’s
not my debt” or they—especially in the situation
of like, for instance, on Mr. Huff’s file report,
there’s linked data, okay?
Classic example, just to give—to give you one, a
person may—they may have received the TFR
just like Mr. Huff did. I got a license, and I want
to know what the linked data is. And just keep
in mind, we didn’t really receive those kinds of
calls.

App.52a
Usually folks were calling in because they had
an issue with their file report as far as, “Could
you explain to me the,” you know, “a decline that’s
showing up,” or “could you”—“I changed my name.
I’ve got a hyphenated name now. Could you”—
“could you please update the report with my name
or my address.”
So there was always that avenue for follow-up.
But in the case of—of James Huff or—or similarly
positioned consumers, they may call and—and say,
“What is the linked data?” And it may just be
your bank account that you verified with me on
the phone now, but you didn’t give it when you
initially made your request.
And then, you know, you say, “Oh, yeah, that is
my account. Okay. Well, then, that’s—that’s what
that linked data was.” So we could get phone calls
for a myriad of reasons, but it usually wasn’t the
case that they were calling about the linked data.
Q.

So let me—let me back up. You said a whole lot
there. First, you said we really didn’t receive
those kinds of calls. Is it your testimony that you
really didn’t receive calls from people saying,
“The report says my record is linked to information.
What is it”?

A.

Correct. I’m saying, you know, as a rule, those
are not the kinds of calls we got based on followup of a consumer receiving a TFR.

Q.

Did—September 2012 until 2- —the present, have
you ever received—well, until they changed—you
changed the format, did they—did you ever receive
a call from someone saying, “I want to know
what is linked to me, what data is linked to me”?

App.53a
A.

Yes.

Q.

Okay?

A.

Yeah.

Q.

Okay. So—and I know that you’re saying that as
a phrase, “we really didn’t receive those kinds of
calls.” You did receive some. They were just rare;
is that—

A.

Correct.

Q.

—a fair statement?

A.

Correct.

Q.

Okay. So I want to focus in on the—the procedure
that was in place if someone called with regard
to linked data—

A.

Okay.

Q.

—okay?
So say Mr. Huff calls and—and says, “This says
there’s linked data to me. What is it,” would
TeleCheck volunteer identifiers to Mr. Huff or—
or anyone else for that matter?

A.

No.

Q.

Would TeleCheck provide truncated identifiers
in any way, saying, for example, “Do you recognize
an account”—“bank account ending in-1101”?

A.

More specifically what we would do in the case
of James Huff, he calls in, we would ask him,
“Do”—“are you associated”—“do you have a bank
account?”

Q.

Okay.

App.54a
A.

And then once we, you know, he would provide
that for us, then we would pull that up in the
system and actually see is the linked data that
his driver’s license linked to, is it that bank
account that he just provided to us over the phone.
And then if we could make that verification, we
would disclose, “Well, here is the linked data.”

Q.

Okay?

A.

“It was linked to that bank account that you had
when you made the question, but you just didn’t
provide that to us.”

Q.

Let’s—let’s—let’s follow up on that.
So again, as with the initial request, you would
be asking for Mr. Huff or a consumer’s identifiers when they call back, right?

A.

Correct.

Q.

And then if they affirmatively provided you with
their own additional identifiers, then you would
either give them the information regarding those
identifiers or possibly send them an updated
report?

A.

Correct.

Q.

Now, during the process of—of one of these phone
calls, would the Resolutions Department representative pull up a screen similar to what’s been
made as Exhibit 3 to Mr. Wallace’s deposition?

A.

Correct.

Q.

So—so that—so the Consumer Resolutions Department representative actually would pull up the
screen to see at that point in time which identifiers were linked in the first degree and active to

App.55a
the driver’s license number that had been provided originally?
A.

Yeah, more specifically, what we would do is pull
up the tracking number, pull up a TFR that the
consumer, you know, received. Pull up their identifiers in that, you know, report. Pull up the—the
driver’s license, like in Mr. Huff’s case.
And then since the report is clear that he didn’t
provide anything else, we would ask: “Are you
associated with a bank account? Do you have a
bank account?” Once he gives that, we pull it up.
We’ll see a screen just like we have here—like in
Wallace No. 3. And then we would pull up and
make that confirmation, “This information is yours
already. You just didn’t provide it before.”
And then in the case that the linked data, you
know, is not that person’s, we could be dealing
with a forgery, a disassociation. Then we would
go down the dispute path. But we’re going to
confirm that person’s identifiers when they’re
calling back in so we can make the determination
what that linked data is referring to.
And then once we make that determination, find
out, you know, whether we can disclose it or not
if it belongs to that person or not.

Q.

All right. When—when you say “go down the
dispute path,” that’s generally if there’s some
type of problem, correct?

A.

Right. That’s—that’s if the consumer is saying,
“That linked data that”—“that you have my
information linked to, that’s not mine.” That’s
all—that’s all it takes for it to be a dispute,

App.56a
disputing the accuracy of the information that
we’re reporting. So that’s why we would go down
that path.
And, like I said, that could be a disassociation.
That could be a forgery. That could be, you know,
a number of things. I’m disputing that I don’t
even owe that debt. So that’s—that’s the difference
of—of trying to figure out what that linked data
is. And that’s all based on our conversation with
that consumer who’s calling back in.
Q.

I’m not—I’m not following you because the consumer—how would the consumer know which identifiers were linked to him when he was not told
in the first instance by TeleCheck?

A.

The consumer would know because we’re asking
the consumer for the information that you didn’t
provide. So like in Mr. Huff’s case, he only provided
the driver’s license. So the next question that’s
going—that’s going to be asked is, “May I have
any bank accounts that you”—“that you write
checks on.” And then we’ll pull those up in the
system.

Q.

And you’re only going to—well, and it was TeleCheck’s procedure to only give additional information base on identifiers that were affirmatively provided to TeleCheck by the consumer in
the follow-up call; is that right?

MR. ESQUIVEL: Object to the form. I think it misstates
what his testimony was.
Q.

(BY MR. HOLMES) All right. Let me rephrase
the question. And I—because you said that the—
the consumer would call back, and you would ask

App.57a
the consumer—you would say, “Well, in your
original request you only provided your driver’s
license number. What is your bank account number,” correct?
A.

Correct.

Q.

What is your Social Security number, correct?

A.

Correct.

Q.

And if they gave TeleCheck those identifiers, then
am I correct that TeleCheck would provide information limited to the identifiers provided affirmatively by the consumer?

A.

We would provide information once we affirmatively, you know, confirmed that those additional
identifiers were that consumer’s.

Q.

All right. But again, you’re—you’re limiting it to
identifiers that are unique to the consumer, such
as his driver’s license number, his bank account
number, his Social Security number, correct?

A.

Could you rephrase the question?

Q.

Okay. Well, in the—in all the—the scenarios you’re
giving me, aren’t you asking the consumer for
his or her specific identifiers, for example, his
driver’s license number, his bank account number,
his Social Security number?

A.

Correct. Only because the linked data could be
the information that they hadn’t provided us that
is affirmatively theirs.

Q.

Okay?

A.

So we have to ask that to confirm what the linked
data is because it’s only linked data. You could

App.58a
be linked to three or four bank accounts that you
didn’t give us.
Q.

Okay. That’s what I—let’s talk about that.
So you—the screen is up. You ask the consumer
for his bank account—bank account. He gives
you that. You see all these other bank accounts
that he’s not giving you. What was the procedure
in place on dealing with that, if any, between
September 2012 to the present?

A.

Yeah, the procedure was to confirm the identifiers
for that consumer, that they are giving us
everything that they have so we can tell them
affirmatively in our system, if this is your information, this is what your—the initial information we gave you is linked to.
So our whole determination is are you linked to
information that’s yours and you just didn’t give
it, or are you linked to information that really
isn’t yours? And that would come out because we
can only start by the consumer giving us identifiers
in the first place. And so that will lead us to,
“Here’s what your information is linked to. Can
you confirm that this bank account is yours or
not yours?”
Because we may have a situation where we may
have a fraud, we may have a disassociation. But
we have to start with processing your information
because you already got a TFR and there was
missing information.
So that’s why the linked data could possibly be—
and I go back to the point, could possibly be

App.59a
information that you’re lim- —that is yours. You
just didn’t let us know that it was yours.
Q.

And I’m—we’re still sticking on identifiers that
are linked in the first degree and active that are
not affirmatively disclosed by the consumer in
the follow-up call. Am I correct that TeleCheck
would not provide the other linked identifiers to
the consumer?

A.

I—I need you to rephrase the question.

Q.

Okay. You’ve—you’ve told me that if—if the consumer affirmatively provides you with additional
identifiers, you will provide them with information related to those identifiers, correct?

A.

Correct.

Q.

Now, if they do not affirmatively give you an
identifier that you see is linked to them in the
first degree, would you give them any information
about those identifiers?

A.

And let me see if I understand your question. I’m
going to try to rephrase it back to you. They call
back in. They give me the additional identifiers.
And then I can actually say, “Okay, well this
is”—“this is the information associated with those
identifiers.” Is your question if I see other identifiers, am I disclosing that information?

Q.

Yes, that’s my question.

A.

Okay. That—that depends. Because if they—we’re
not going to give—give a consumer any information
unless they confirm that that information is theirs.
If—if—if there’s a debt associated with the information, per se, then we’ll—we’ll certainly say,

App.60a
“Yes, your information is linked, you know, to,
you know, a debt in our system.”
And we will link—we will give the debt details as
far as it was on this date, on this dollar amount.
Are you saying this debt is yours or not? And if
the person says, “No, that’s not my debt. I don’t
have a bank account at that particular bank” or
whatever, then that’s where—why I was sticking
to the point that that’s why we may have a disassociation.
We may have a forgery. That’s why we start the
dispute process. And just so you understand,
anything that the consumer is stating that goes
against what we have in our system as far as the
accuracy of the information, that’s a dispute. So
if a consumer is going to say, “That information
is not mine,” then that’s when we’ll start that
process.
So they didn’t give me the identifier. They told
me they don’t understand—they don’t recognize
the information. They’re not claiming ownership
of the information. That’s why if it’s linked to
their file, then we have to start a dispute.
And then we’ll go ahead and—and go down that
path, requesting a copy of the—of the check. You
know, possibly calling the bank, possibly doing
the bank validation to prove, you know, who is
the owner of that particular account.
Q.

Your example, though, is dealing with a situation
where you see a debt linked to the consumer who—
who calls back. Let’s say there’s—there’s no debt
linked to the consumer, but there are other identifiers linked to the consumer.

App.61a
A.

Okay.

Q.

Would that information be provided to the consumer in a follow-up call?

A.

The information that would be provided to the
consumer when there is no debt information would
be if they can’t confirm that that particular bank
account, you know, is theirs. Then we would go
ahead and clean up the file and delink the information because there’s no negative. It’s not associated with anybody else that would cause an
adverse action.
So if they’re linked to other information, then we
would use that information, what we got from the
consumer, to clean the file up. And that means if
there are three or four other bank accounts, they’re
not associated with debt as you said in your
example, then we would go ahead and delink that
information once we get confirmation from the
consumer that they don’t have accounts with those
particular banks.

Q.

Well, so my question is: What is it that you say
to the consumer to—to—to come to that—that
conclusion?

A.

(Pauses.)

Q.

You’ve already told me you don’t—you don’t say,
“Do you have a bank account ending in-1876.” Do
you—do you give them any information about the
accounts that are linked to them that are not
associated with a bad debt?

A.

Yes, the information we would give to them is
the name of the bank. And if it’s not associated
with any debt and they say, “No, I’ve never had

App.62a
a bank account with that particular bank,” and
that bank account is not linked to any debt, there’s
no adverse action pending and—and we’re get that
information directly from the consumer, we would
delink that and make sure the file is notated
appropriately.
Q.

Now, I think you testified you would be looking
at one of the screenshots similar to what’s Exhibit
3 to Mr. Wallace’s depo- —deposition, correct?

A.

Correct.

Q.

Now, how do you—how do you ascertain the—the
name of the bank from the screen?

A.

You can’t ascertain it from this screen that’s
depicted here. Within the CSR, there’s a bank
info tab. And you can go put in the routing number
of—of that particular bank number and get the
name of the bank.

Q.

So you—you’re saying you would go in and determine—look at the routing number and get the
name of the bank to ask them if they have an
account at that particular bank?

A.

Correct.

MR. ESQUIVEL: Can we take a break now—
MR. HOLMES: Sure.
MR. ESQUIVEL: —or when you finish this line of
questions?
MR. HOLMES: We can take—we can take a break now.
MR. ESQUIVEL: Okay. Thank you.
(Break from 3:42 p.m. to 3:54 p.m.)

App.63a
Q.

(BY MR. HOLMES) Looking at Topic 9: “Defendants’ policies, practices and procedures for documenting or otherwise recording their receipt of
and response to consumer’s request for a file disclosure during the Recovery Period, for example,
Defendants’ use of escalation forms.”
We’ve covered a—a lot of this al- —already, so
I’m just—this—some of this will be just—just
cleanup. Now, you’ve told me that-let’s take the
first scenario, a telephone call into the call center
where the consumer is requesting a file disclosure.
I think the documentation of that would be in
2012 information inputted into the Web app, and
then in 2013, the creation of a Remedy ticket?

A.

Yes.

Q.

Okay. And would there be any other notes or
documentation related to the call, other than the
Web app and the Remedy ticket?

A.

The details of—of the call would actually be
repeated in the CSR—in the ID screen for the
notes.

Q.

And that would be for the entire period, September
2012 to present?

A.

Correct.

Q.

So the CSR documents the call in the ID screen,
as well as by creating first—in the first instance
in 2012, the—the Web app information, and then
after that in 2013, the Remedy ticket?

A.

Yes.

App.64a
Q.

And then the—the—the information in the Web
app, would that have been sent then, pushed
electronically to the Resolutions Department?

A.

Yes.

Q.

And then you said you had workflow that would
then send that electronically to the employees in
Resolutions responsible for handling the particular request?
[...]

